                                CLOSEOUT of CASE M99030007




         A PI' admitted publicly in a newsletter that he was told about the confidential
rankings of his proposal and about the deliberations of NSF panel rnember~.~    NSF
staff involved in the panel3speculated about one of the panelist's4 being the source of
the leak. We researched possible financial or professional connections between the
suspected source and the PI and found no clear connections or any other evidence
supporting the speculation. When asked about the source of the ranking information,
the PI said several people had given him information about the panel discussions and
he was not willing to divulge more specific information that would allow us to pursue
this allegation.

           This inquiry is closed and no further action will be taken in this case.




cc: IG, Integrity




' [redacted].
  The proposal, [redacted], was entitled [redacted]. [redacted] was the sole PI and [redacted] was
requested for 5 years of funding.
 [redacted].
 [redacted].


Closeout
